OIG Investigative Reports, United States Reaches $1,750,000 Settlement with the District of Columbia to Resolve Allegations Regarding Fraudulent Misuse of Federal Grant Funds by the District of Columbia Public Schools
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE
Friday, September 12, 2008
USAO Public Affairs
(202) 514-6933
www.usdoj.gov/usao/dc
United States Attorney's Office
District of Columbia
Jeffrey A. Taylor
United States Attorney
United States Reaches $1,750,000 Settlement with the District of Columbia to Resolve Allegations Regarding Fraudulent Misuse of Federal Grant Funds by the District of Columbia Public Schools
WASHINGTON, D.C.— The United States has reached a $1,750,000
settlement with the District of Columbia (" District") to resolve
allegations that the District of Columbia Public Schools ("DCPS")
falsely certified its eligibility to receive federal funds under the Migrant
Education Program ("MEP") and submitted or caused to be submitted
false claims to the U.S. Department of Education for payment knowing that it
was ineligible to receive MEP funds, U.S. Attorney Jeffrey A. Taylor and Mary
Mitchelson, Deputy Inspector General of the U.S. Department of Education announced
today.
Under the Migrant Education Program, the U.S. Department of Education provides funds to States and territories to assist state education agencies in providing appropriate educational services that address the special needs of migrant children.  The regulations governing the Migrant Education Program enumerate specific criteria for state education agencies to use in identifying migratory children.  The States and territories are responsible for providing to the U.S. Department of Education an accurate count of eligible migratory children residing within the State or territory.
The federal government alleged that the DCPS falsely certified that it had eligible migratory children residing in the District of Columbia.  At the time DCPS is alleged to have fraudulently misused MEP funds, it was an independent agency under the supervision of the District of Columbia Board of Education.  The DCPS is now a subordinate agency of the District of Columbia under the control of the Mayor.
According to the government’s evidence, from 2001 to 2003, DCPS submitted annual certifications of its migrant child counts to the U.S. Department of Education and obtained MEP funding as a result of these submissions.  In June 2005, a DCPS internal audit mandated by the U.S. Department of Education revealed that none of the children included in its child count for 2003 were eligible to participate in the Migrant Education Program.  Further investigation confirmed that the DCPS submitted false certifications of its migratory child count from 2001 to 2003.
The U.S. Attorney's Office for the District of Columbia, in collaboration with
the Civil Division of the U.S. Department of Justice, pursued recovery for the
fraudulent use of the migrant grant funds under the False Claims Act. The District
of Columbia agreed to pay $1,750,000 to resolve these allegations. The District
denied liability as part of the settlement.
"Recipients of federal grant funds must be responsible stewards to ensure
that the funds are used for the intended beneficiaries," said U.S. Attorney
Taylor. "This resolution demonstrates our commitment to pursue aggressively
the misuse of federal grant funds and hold the recipients accountable, whether
they be individuals or governments.”"
Deputy Inspector General Mitchelson stated, "This agreement corroborates
the importance of accountability and maintaining the integrity of federal education."
In announcing the settlement, U.S. Attorney Taylor and Deputy Inspector General
Mitchelson commended members of the Office of Inspector General of the U.S.
Department of Education. In particular, he praised the outstanding investigative
efforts and assistance of OIG Special Agent Derrick Franklin, and OIG Special
Agent in Charge William Hamel. In addition, they commended Assistant U.S. Attorney
Paul A. Mussenden, who coordinated the civil investigation and settlement discussions.
Top
Printable view
Share this page
Last Modified: 09/15/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov